OFFICE OF INSPECTOR GENERAL



AUDIT OF
USAID/AFGHANISTAN’S LOCAL
GOVERNANCE AND
COMMUNITY DEVELOPMENT
PROJECT IN SOUTHERN AND
EASTERN REGIONS OF
AFGHANISTAN

AUDIT REPORT NO. 5-306-09-003-P
May 11, 2009


MANILA, PHILIPPINES
Office of Inspector General


May 11, 2009

MEMORANDUM

TO:                  Acting USAID/Afghanistan Mission Director, Peter Argo

FROM:                Regional Inspector General/Manila, Bruce N. Boyer /s/

SUBJECT:             Audit of USAID/Afghanistan’s Local Governance and Community Development
                     Project in Southern and Eastern Regions of Afghanistan (Audit Report No.
                     5-306-09-003-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and included the comments in their entirety in
appendix II.

This report contains 12 recommendations to assist the mission in improving its management
and oversight of the Local Governance and Community Development project. On the basis of
the information provided by the mission in response to the draft report, we determined that
management decisions have been reached on recommendations 4, 10, 11, and 12. In addition,
final action has been taken on recommendations 1, 2, 3, 5, 6, 7, 8, and 9. A determination of
final action will be made by the Audit Performance and Compliance Division upon completion of
the planned corrective actions for recommendations 4, 10, 11, and 12.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3 


Audit Findings ................................................................................................................. 4 


Was USAID/Afghanistan’s Local Governance and Community 

Development Project in southern and eastern regions of
Afghanistan achieving planned results, and what has been the
impact?

     Support to Local Public Administration
     and Governance Component
     Experienced Delays .................................................................................................... 5

     Community Mobilization and
     Development Component
     Experienced Delays .................................................................................................... 7

     Local Stability Initiatives Component
     Experienced Delays .................................................................................................... 9

     Contractor’s Performance Monitoring
     and Evaluation System Requires
     Improvement ............................................................................................................. 11

     Operational Plan Indicators Need
     Refinement................................................................................................................ 14 


     Work Plans Require Timely Approval ....................................................................... 16 


Evaluation of Management Comments ....................................................................... 18 


Appendix I—Scope and Methodology......................................................................... 19 


Appendix II—Management Comments........................................................................ 21

Appendix III—Table A-1: Project
Achievements as of August 2008 ................................................................................ 28
SUMMARY OF RESULTS

Despite recent successes in the Islamic Republic of Afghanistan—increased economic
growth, more student enrollments in schools, and better access to health care—
continuing violence and severe underdevelopment in the provinces threaten to
undermine the legitimacy of the central government and reverse gains made to date.
The center of gravity for U.S. Government assistance is therefore shifting to
Afghanistan's outlying provinces. In an effort to assist the provincial governments and
improve stability within the provinces, in October 2006 USAID/Afghanistan launched its
Local Governance and Community Development Project in the southern and eastern
provinces by awarding a 3-year, $95 million contract (subsequently increased to $164
million) to Development Alternatives Inc. (the contractor). As of August 31, 2008,
USAID/Afghanistan had obligated $119 million and disbursed $41 million for the project
activities. The project included four main components: (1) supporting local public
administration and governance, (2) promoting community mobilization and development,
(3) aiding local stability initiatives, and (4) providing expertise to support the provincial
reconstruction teams’ mandate (see page 2).

The Regional Inspector General/Manila conducted this audit to determine whether
USAID/Afghanistan’s Local Governance and Community Development Project in southern
and eastern regions of Afghanistan was achieving planned results and to assess the
impact the project has made (see page 3).

The audit found that the project suffered from substantial delays in the first three
components. Because these components accounted for almost all of the project’s
disbursements, as the project enters its third and final year, its success seems highly
questionable (see page 4).

Besides these delays, the project also has been hindered by the need for improvements
in the contractor’s monitoring and evaluation system (see page 11), refinements in the
mission’s operational plan indicators (see page 14), and timely approval of annual
contractor work plans (see page 16). Moreover, the contractor did not properly establish
performance targets for the 14 key indicators in its performance monitoring plan for fiscal
year 2008 (see page 4 and appendix III on page 28).

The project did achieve some planned results, such as on-the-job training for
government staff and assistance to ministries in preparing solicitations for donor funds.
In addition, the contractor was able to construct a school in Nangarhar Province that
brought two competing tribes together for a common project (see page 4).

This report contains 12 recommendations to assist the mission in improving its
implementation and monitoring of local governance and community development
activities (see pages 6 through 16).

After evaluating the mission’s response to the draft report, this audit determined that final
actions have been taken on recommendations 1, 2, 3, 5, 6, 7, 8, and 9, and
management decisions have been reached on recommendations 4, 10, 11, and 12 (see
page 18). The mission’s written comments on the draft report are included in their entirety,
without attachments, as appendix II to this report (see page 21).


                                                                                           1
BACKGROUND 

Events in Afghanistan within the last 4 years have brought about dramatic transitions. In
2005, elections for the National Assembly and provincial councils gave Afghans elected
representatives at the provincial level for the first time. Economic growth is accelerating,
agricultural output has doubled, and food security is improving. Enrollments in primary
school have increased dramatically, particularly for girls, and access to quality basic
health care is improving. Despite these examples and other successes, however,
continuing violence and severe underdevelopment in the provinces threaten to
undermine the legitimacy of the central government and reverse gains made to date.
The center of gravity for U.S. Government assistance is therefore shifting to
Afghanistan's outlying provinces.

To assist the provincial governments and improve stability within the provinces,
USAID/Afghanistan launched its Local Governance and Community Development
Project (the project) in the southern and eastern provinces. The project works in
partnership with local communities to create a stable environment for long-term political,
economic, and social development. The project also works closely with provincial
reconstruction teams—joint civilian and military organizations—to promote this stability.
To implement this project, in October 2006 USAID/Afghanistan awarded a $95 million
contract to Development Alternatives Inc., with an end date of October 2009.1

In November 2007, supplemental funding increased the contract ceiling to $164 million.
As of August 31, 2008, USAID/Afghanistan had obligated $119 million and disbursed
$41 million for the project activities. Of the subprojects being implemented under the
four project components, the first two components accounted for most of the
disbursements (28 percent and 69 percent, respectively). The project is divided into four
components, described in the table below.

Table 1: Project Components
                  Title                                          Expected Outcome
       Support to local public
                                     Improved provincial and municipal capacity to deliver services and address
1      administration and
                                     citizen needs
       governance

                                     Greater community participation in the selection and implementation of
       Community mobilization        small-scale development subprojects and stronger ties between these
2
       and development               communities and the local government bodies that are responsible for
                                     provincial development

                                     Improved stability in targeted districts and provinces through identifying and
3      Local stability initiatives   addressing development issues that contribute to instability and support for
                                     insurgency
       Provide expertise in
                                     Identify a pool of experts in subjects such as agriculture, local governance,
       subjects that support
                                     conflict management, infrastructure, and community mobilization who can
4      the mandate of the
                                     assist the provincial reconstruction teams in the implementation of the
       provincial reconstruction
                                     project
       teams



1
    A separate contractor was selected to work in the northern and western regions of Afghanistan.


                                                                                                                 2
AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2008 annual audit plan to answer the following question:

•	 Was USAID/Afghanistan’s Local Governance and Community Development Project in
   southern and eastern regions of Afghanistan achieving planned results, and what has
   been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                    3
AUDIT FINDINGS

USAID/Afghanistan’s Local Governance and Community Development Project in the
southern and eastern regions of Afghanistan experienced substantial delays in three
main project components: (1) supporting local public administration and governance, (2)
promoting community mobilization and development, and (3) aiding local stability
initiatives. These components accounted for almost all of the project’s disbursements.
As a result, as the project enters its third and final year, its success seems highly
questionable.

The project did achieve some planned results, such as in its efforts to support local
public administration and governance (component 1) and promote community
mobilization and development (component 2). For example, several front-line ministries
and provincial government officials commented that on-the-job training provided to their
staff was instrumental in helping to organize their offices to provide better services.
Further, technical assistance provided under the project has allowed the provincial
government offices and line ministries to prepare proposals to solicit funds for projects
from other donor agencies.

In addition, under component 2, the contractor was able to construct a school in the
Goshta District in Nangarhar Province that brought two competing tribes together for a
common project. The Nangarhar Director of Education commented that the school has
been a great success, and since its opening over 500 students have enrolled.




Goshta school in Nangarhar Province, April 2008. Photo courtesy of the contractor’s East Regional
Office.

In spite of the aforementioned successes, the contractor did not properly establish
performance targets for the 14 key indicators in its performance monitoring plan for fiscal
year 2008. The contractor developed targets for 12 of the 14 indicators on the basis of 9
months of actual results for fiscal year 2008. For the other two indicators, the targets
were established for two contractors implementing the project at the summary level and
then arbitrarily split in half for reporting purposes, not taking into consideration the
possible differences the two contractors might have in implementing the project. A list of
the 14 key indicators, along with reported and verified results as of August 2008, is
included in table A-1 in appendix III.

The audit also identified six areas of the project, discussed below, that needed
improvements.




                                                                                               4
Support to Local Public
Administration and Governance
Component Experienced Delays

Summary: According to the first-year work plan, to support local public administration
and governance (component 1), the contractor was to provide appropriate training in
public administration, public participation, and community literacy through on-the-job
training and formal venues. The contractor was also to provide office equipment and
begin subprojects to enhance government infrastructure, including construction of 11
new facilities. The contractor did not deliver to the terms of the contract and work plans.
Delays in providing training and equipment resulted from the contractor’s inability to find
qualified personnel, difficulties working with the provincial government, and turnover of
the staff. Delays in infrastructure subprojects were caused by difficulties in finding
acceptable construction sites and getting designs approved. As a result, because the
contractor was significantly delayed in providing these key resources—inputs, training,
equipment, and infrastructure—the project will not have the impact it had intended on
local governance.

According to the first-year work plan, to support local public administration and
governance (component 1), the contractor was to provide appropriate training in public
administration, public participation, and community literacy through on-the-job training
and formal venues to commence within the first 2 months of approval of the annual work
plan. In addition, the contractor was expected to provide office and information
technology equipment and begin subprojects to enhance government infrastructure.
Then the mission modified the contract in November 2007, requiring the contractor to
construct provincial and district facilities by September 2009 to enhance government
infrastructure. The mission and contractor had planned to build 11 facilities.

With regard to on-the-job training, due to commence within the first 2 months of approval
of the work plan, in some locations the contractor delayed training until the second year
of the project. In one province, the contractor did not plan to provide on-the-job training
until the third year of the project. Further, the contractor delayed providing formal
training until November 2007, more than a year after the contract was awarded in
October 2006.

The contractor did not deliver furniture and equipment as required under the first-year
work plan. Specifically, the contractor delayed delivery of furniture by 4 months until
February 2008 and information technology equipment by 9 months until July 2008.

Lastly, with regard to government infrastructure, as of the end of the audit fieldwork
(October 2008) the contractor had yet to begin any of the planned construction of district
and provincial buildings.

The contractor’s delays in implementing the activities for training, equipment support,
and infrastructure work under component 1 resulted from various causes, described
below.

First, the contractor could not find qualified local personnel to staff the technical adviser
positions that were to provide on-the-job training. Then, the contractor encountered


                                                                                           5
difficulties working with provincial and line ministries because they were reluctant to
accept outside technical assistance or preferred that the contractor fund the salaries for
existing employees in lieu of providing in-house technical assistance. A further difficulty
arose from the provincial ministries’ wanting to influence the hiring process to hire
personal friends. These problems were exacerbated by technical adviser turnover when
technical advisers received threats from antigovernment elements. Because the
contractor had been relying on the technical advisers to identify the training, equipment,
and furniture that would be needed to implement the training workshops and deliver
information technology equipment, those tasks were further delayed by the turnover.
Moreover, delivery of the information technology equipment and furniture was delayed
further because, to achieve the best possible price, the contractor consolidated all of the
purchases and, as a result, the bidding process took longer than expected.

With regard to infrastructure subprojects, the construction delays were caused mainly by
the protracted time district officials took to approve the final design concepts as well as
to find acceptable land for construction. For example, of the 11 sites identified as
possible construction locations, the contractor could accept only 5 sites because the
others lacked formal deeds necessary to support government ownership of the land or
were in insecure locations. Furthermore, the contractor has yet to complete the
environmental assessments, and because of the harsh winter weather and the
constantly changing security situation, the contractor probably will not complete
construction of all the planned buildings.

As a result, because the contractor was significantly delayed in providing the necessary
training, equipment, furniture, and infrastructure, the project will not have the intended
impact on local governance. Training that the contractor was expected to provide
throughout the 3-year contract must now be compressed within the second and third
years and, in some cases, all in the third year. The decrease in the number of provincial
and district facilities will reduce the opportunities for capacity building at the provincial
and district levels and complicate the effort to build a sustainable workforce. Finally, the
project delays will prevent the mission from disbursing all of the obligated funds by the
end of the contract in October 2009. On the basis of projected spending levels, this
audit estimates that $73 million will remain unexpended at the end of the project.

This audit makes the following recommendations.

   Recommendation 1:           We recommend that USAID/Afghanistan develop
   contingency plans on how it intends to complete construction of buildings started
   before the end of the contract, in the event of additional delays.

   Recommendation 2: We recommend that USAID/Afghanistan develop a
   detailed implementation plan that identifies the activities it can successfully
   complete by the end of the project and explains how unexpended funds will be
   used.




                                                                                           6
Community Mobilization and
Development Component
Experienced Delays

Summary: To carry out the community mobilization and development component of the
contract (component 2), the mission was to approve subprojects that were developed
through the community and provincial levels. In the first year of implementation, the
subprojects that the contractor implemented and the mission approved did not meet the
expectations specified in the contract under this component. The subprojects fell short
because (1) the contractor had no overall strategy for implementing the component, (2) it
lacked qualified regional and national staff to oversee implementation of the activities,
(3) the statement of work was too broad, and (4) the mission’s staff did not understand
their respective roles and responsibilities related to this contract. As a result of these
issues, the project did not achieve its primary objective of giving the provincial
governments a means of providing services to their citizens. This component thus lost
much of the impact it could have had on increasing favorable perceptions that the
provincial governments are responsive to community needs.

According to the community mobilization and development component of the contract
(component 2), the mission was to approve subprojects that were developed at the
community and provincial levels. The contractor was to develop subprojects through
Community Development Councils and coordinate them through the Provincial
Development Committees. This arrangement was meant to increase the favorable
perception that the provincial governments were providing services to their citizens.
Also under this component, the contractor was expected to implement community
development subprojects near targeted strategic towns or villages to help enhance and
ensure stability within the areas.

In the first year of implementation, the contractor had implemented mission-approved
subprojects that did not meet the expectations specified in the contract under component
2. For example, the mission had approved a poultry subproject mostly because it served
the interest of the local provincial reconstruction team. Such subprojects had no relation
to an overall strategy for integrating the local Community Development Councils’
priorities with the Provincial Development Committees’ plans. Because the subprojects
lacked any connection to the expected outcomes, the expended resources made no
impact upon community mobilization and development.

The contractor did not meet the objectives under component 2 because (1) it had no
overall strategy for implementing the component, (2) it lacked qualified regional and
national staff to oversee implementation of the activities, (3) the contract statement of
work was too broad, and (4) the mission’s field program officers2 did not understand their
respective roles and responsibilities related to this contract.

2
  Field program officers are USAID/Afghanistan employees working at provincial reconstruction
team locations across Afghanistan to coordinate development activities with provincial
reconstruction team leaders and to assist USAID cognizant technical officers with the field
monitoring of programs. Note that in January 2009, the term “cognizant technical officer” was
replaced with “contracting officer’s technical representative,” and references to that position in this
report will use the latter term.


                                                                                                     7
According to the mission and the contractor, there was no strategic plan that identified
the parameters for selecting community subprojects to implement. As a result, the
subprojects that the contractor did implement tended to be targeted by the field program
officers and the provincial reconstruction teams. Although these subprojects supported
their respective priorities, the subprojects did not necessarily reflect the needs identified
through the Community Development Councils and Provincial Development
Committees. A strategic plan for selecting community-based subprojects was not
developed until the incoming contracting officer’s technical representative arrived in June
2008.

A lack of qualified regional and national staffing also contributed to the implementation
delays. At the end of the project’s first year, the contractor had not yet staffed its home
office in Kabul with the position of a leader to oversee the activities under community
mobilization and development. At the regional levels, the contractor has had to deal with
frequent turnover in key positions. For example, in Kandahar the leader’s position has
turned over four times, and in Gardez, three times. Without qualified leaders, at both the
home and regional offices, continuity of operations and stability toward accomplishing
goals have been difficult to maintain.




Canal cleaning subproject (component 2) in       Canal cleaning subproject (component 2) in
Laghman Province in February 2007 before         Laghman Province after work was completed.
work began.        (Photo courtesy of the        (Photo by Office of Inspector General,
contractor’s East Regional Office.)              October 2008.)


Further, the mission commented that the original contract’s statement of work was too
broad and contributed to the lack of focus for the subprojects initially implemented.
Moreover, the mission stated in retrospect that a technical review of the statement of
work by the contracting office and program office could have assisted in making it more
specific.

Lastly, the progress of implementation was hindered because the mission’s field
program officers misunderstood their roles and responsibilities related to this contract.
The contractor and the contracting officer’s technical representative provided numerous
examples of delays that resulted from field program officers’ exceeding their authority.
For example, a field program officer redirected a contractor employee from subproject
work to perform a site assessment in a hostile district where no subprojects were either
planned or being implemented but that served the field program officer’s priorities. Field
program officers also tasked contractor staff with providing ad hoc reports for provincial


                                                                                              8
reconstruction teams without approval from the contracting officer’s technical
representative. In another example, a field program officer halted a training subproject
because the officer and other provincial reconstruction team members were out of the
country. Further, this field program officer attempted to exclude the contractor from
recruitment of training participants, even though the contractor was specifically required
to do so. Finally, the field program officer wanted the contractor to expand recruitment
beyond the districts that were given priority in the contract.

In the contract’s component 2, these delays caused the project to lose its focus on
providing the provincial governments a means to offer services to their citizens. The
component thus made less impact on increasing favorable perceptions that the
provincial governments are responsive to community needs. Further, by not properly
targeting strategic geographical areas, the project missed an opportunity to stabilize
those areas.

This audit makes the following recommendations.

   Recommendation 3:            We recommend that USAID/Afghanistan develop
   procedures to provide training to all new and existing field program officers as to
   their roles and responsibilities.

   Recommendation 4:          We recommend that USAID/Afghanistan develop
   procedures requiring technical review of statements of work for specificity to
   assist in project implementation.


Local Stability Initiatives
Component Experienced Delays

Summary: The goal of the contract’s component on local stability initiatives (component
3) was to achieve short-term stabilization by implementing short-term subprojects that
address the causes of violence. The contractor did not achieve its target for fiscal year
2008, as it had completed only 13 out of 90 subprojects by the end of August 2008. The
contractor experienced many difficulties and delays in meeting its planned targets
because of (1) the lack of qualified staff, coupled with frequent staff turnover, (2)
ineffectiveness in the subproject approval process, (3) individuals who overstepped their
authority, and (4) poor subcontractor performance. As a result of the delays, this
component lost much of the impact it could have had on promoting local stability in
targeted areas.

The goal of the contract’s component on local stability initiatives (component 3) was to
achieve short-term stabilization by implementing short-term subprojects that address the
causes of violence. This would require identifying and addressing issues contributing to
violence in the region, such as fighting over water and land rights. This component also
involved identifying and engaging populations vulnerable to recruitment into militant
groups and providing dispute-mediation services and community security in those areas
to resolve underlying causes of the violence and conflict. The contractor was expected
to complete 90 subprojects by the end of fiscal year 2008.




                                                                                         9
The contractor did not achieve its target of 90 subprojects for fiscal year 2008. Instead,
it had completed only 13 subprojects by the end of August 2008 and was not likely to
meet its target in the last month of fiscal year 2008. Furthermore, if not corrected, other
management factors could forestall successful completion of this component by the end
of the project.

The contractor experienced many difficulties and delays in meeting its planned targets
because of (1) the lack of qualified staff, coupled with frequent staff turnover, (2)
ineffectiveness in the subproject approval process, (3) individuals who overstepped their
authority, and (4) poor subcontractor performance. Explanations of these problems are
detailed below.

(1) The contractor had difficulty in recruiting and retaining qualified individuals for its
home office coordinator position in Kabul to manage the activities under this component.
The position requires a military and development background as well as a willingness to
work in hostile environments. The contractor has had difficulty recruiting individuals with
both military and development knowledge. As a result, from December 2007 through
May 2008, the contractor did not have any personnel coordinating work on the activities
under the local stability initiatives. In May 2008, the contractor hired a qualified home
office coordinator.

(2) An inefficient subproject approval process caused delays in subproject decisions,
and certain decisions made at the onset of the project impeded the schedule for
component 3. The mission initially identified the local stability initiatives as the most
critical to setting the foundation for achieving overall project results, and thus top priority
was placed on reviewing and approving subprojects under this component. However, at
the beginning, some USAID field program officers and the contractor attempted to push
forward some subprojects that supported longer-term activities, such as infrastructure
that would require a longer approval process if placed under another component. For
example, a subproject that planned to construct a water pipeline through several villages
originally obtained approval as a component 3 subproject but was later reclassified to
component 2. The contracting officer’s technical representative subsequently tried to
exercise greater oversight by delegating to the development adviser3 the power to
develop and approve subprojects. However, this action created further delays,
especially when the adviser went on leave without a backup in place.

(3) The project was further hampered by the decision to delegate decision and approval
responsibilities to the development adviser, enabling him to exceed the authorities of the
position. For example, the development adviser tasked contractor personnel to perform
functions without consulting the contractor’s management. The development adviser
also exceeded the authority of the position by terminating the employment of one of the
contractor personnel.      A development adviser is not responsible for the direct
implementation of programs, which in this case occurred by delegating contracting
officer’s technical representative responsibilities to the position.

(4) The project also suffered from the subcontractor’s poor performance in providing

3
  Development advisers are USAD/Afghanistan employees who are also members of the senior
military staff working at a regional command or on a task force. They are the primary advisers to
the military’s commanding officers as well as to Afghan officials in the region. These advisers
work directly with the U.S. Special Forces to support local stability initiatives.


                                                                                              10
critical services. For example, the contractor awarded grants to the Tribal Liaison Office
to provide conflict mapping and analysis. As the project progressed, the contractor
noticed that the grantee did not have sufficient resources to take on additional work
under subsequent grants. Because of the urgency of the tasks, the contractor also
expressed concern that the grantee’s work was having little effect within its assigned
areas. The remaining grants were eventually terminated and no further work was
added. The contractor initially relied on this grantee to deliver essential information
under component 3. However, after determining that the grantee was unreliable, the
contractor had to identify alternative sources to supply the information. Although the
grantee found alternatives, the initial decision to work through this grantee impeded
progress in the first year.

As a result of the delays, the contractor was able to complete only 13 of the 90 local
stability initiative subprojects targeted for fiscal year 2008. This component therefore
lost much of the impact it could have had in promoting local stability in targeted areas.

This audit makes the following recommendations.

   Recommendation 5: We recommend that USAID/Afghanistan establish
   procedures for subproject development and approval of component 3 activities
   and communicate these to Development Alternatives Inc. and the mission’s
   development adviser.

   Recommendation 6: We recommend that USAID/Afghanistan develop
   procedures for providing training to existing and new development advisers on
   their roles and responsibilities related to program implementation.


Contractor’s Performance
Monitoring and Evaluation
System Requires Improvement

Summary:      The contract required the contractor to establish and maintain a
performance-based monitoring and evaluation system capable of tracking and
documenting the status of implementation of all work components’ activities. However,
the contractor did not fully comply with maintaining such a system. Specifically, the
contractor had not adequately defined the performance indicators and targets and had
not reported or tracked its progress to support USAID program reporting data.
Furthermore, the system lacked consistent documentation to support some of its
reported results. Contributing to the system’s inadequacies were (1) lack of effective
guidance from the contracting officer’s technical representative, who was unfamiliar with
monitoring and evaluation systems; (2) complexities introduced by the mission for
establishing performance indicators; (3) contractor’s difficulties in hiring a monitoring and
evaluation manager; (4) reprogramming effort required of the automated system; and (5)
lack of guidance from the contractor’s home office to its regional office standardizing
what constitutes acceptable documentation for support of reported results. As a result,
there was no assurance that the mission has sufficient, reliable information needed to
make timely and effective management decisions.




                                                                                          11
Article IX of the contract required the contractor to establish and maintain a
performance-based monitoring and evaluation system capable of tracking and
documenting the status of implementation of all activities in the work components.
According to the contract, the system was to include, at a minimum, the following
elements for generating specific data and reports:

   •	   Indicators, associated data, and descriptive indexes for activities
   •	   Baseline of conditions at the start of the project
   •	   Activity tracking against work plan targets
   •	   Reporting of deliverables against work plan targets
   •	   USAID program reporting data to be obtained from USAID/Afghanistan’s
        Program and Project Development Office
   •	   Strategic objective and intermediate result indicators
   •	   Reports required to provide valid internal assessments by the contractor’s activity
        managers of their activities and interventions
   •	   Reports required by USAID in conformance to its standards, including training
        reports as required by USAID policy
   •	   Consultant database
   •	   Financial plan and expenditure tracking

The contractor did not fully comply with maintaining a performance-based monitoring
and evaluation system as required by the contract terms. Specifically, the contractor
had not adequately defined the performance indicators and targets and had not reported
or tracked its progress to support USAID program reporting data. Furthermore, the
system lacked consistent documentation to support some of its reported results.

As of September 2008, 2 years after USAID had awarded the contract and after the
contractor had submitted its performance monitoring plans for fiscal years 2007 through
2009, the contractor had yet to satisfactorily define the performance indicators, which
serve as the fundamental basis on which to measure progress. For example, the
contractor’s May 2007 plan, originally covering fiscal years 2007 and 2008, included
indicator definitions that the contracting officer’s technical representative found confusing
because some indicators appeared to be measuring multiple results—for example, the
indicator “U.S. Government-assisted activities that contribute to the peace progress,
successfully resolve conflict which may have blocked implementation, and provide
practical benefits at the community level.”

Additionally, the contractor had not satisfactorily set performance targets, which set out
the specific, planned level of results to be achieved within an explicit timeframe. Either
the contractor’s performance monitoring plans did not contain any targets, or the stated
targets reflected the actual results that had already been achieved during most of the
reporting period. For example, the targets in the revised fiscal year 2008 performance
monitoring plan, submitted to the mission in September 2008—11 months into the fiscal
year—did not define set targets for planned results but instead contained targets that
reflected actual results through the first 9 months of the fiscal year. Further, the
contractor’s draft fiscal year 2009 plan did not have targets for six indicators.

Furthermore, the contractor had not incorporated within its performance-based
monitoring and evaluation system a means to track and report its progress against
USAID’s operational plan indicators until it submitted its revised plan in September 2008.



                                                                                          12
The indicators and targets were to be obtained from USAID/Afghanistan’s Program and
Project Development Office. Specifically, the mission reports the number of community-
based reconciliation projects completed with U.S. Government assistance and the
number of people trained in conflict resolution skills with U.S. Government assistance;
however, the contractor did not design its performance monitoring plan to collect and
report activity data for these indicators. These operational plan indicators are necessary
for Agency-level decision making and external reporting.

In regard to supporting documentation for reported results, the contractor was unable to
provide adequate supporting documentation for three indicators. For example, the
contractor could not sufficiently support the reported number of Afghan Government
officials trained. In another indicator, which called for a 10 percent community
contribution, the contractor could not adequately demonstrate how this contribution had
been estimated or whether the community actually contributed its share to the
subproject. Moreover, monitoring and evaluation reports did not typically address or
verify the community contributions.

Five factors contributed to the lack of an adequate monitoring and evaluation system.

(1) The initial contracting officer’s technical representative did not have adequate
experience in working with this type of performance monitoring system and thus was
unable to provide technical guidance to the contractor when it was not adhering to the
contract requirements. The contracting officer’s technical representative did not seek
assistance, nor was any offered by the mission’s Program and Project Development
Office.

(2) The mission’s planning methodology introduced further complications in its
development of the original performance monitoring plan. The mission awarded two
separate contracts for the same purpose to work in two different geographic areas. One
contractor worked in the northern and western regions and the other contractor (the
project implementer under this audit) worked in the southern and eastern regions. The
mission used a combined target for a common indicator and arbitrarily divided the target
equally between the two contractors; the resulting problems are discussed in the finding
beginning on page 14.

(3) The contractor’s monitoring and evaluation manager position had been vacant since
April 2008. As of November 2008, the monitoring and evaluation task was assigned to
another individual as an additional duty. The contractor has been interviewing
applicants for this position but has had difficulty in finding qualified applicants.

(4) The contractor contends that its automated reporting system still requires some
reprogramming to fully capture data and report on the results of all the new indicators
recently agreed upon with the contracting officer’s technical representative cognizant
technical officer.

(5) The system lacked consistent documentation to support reported results because the
contractor’s home office in Kabul did not provide guidance to regional offices defining
minimum documentation requirements.            The contractor acknowledged that
documentation standards at the regional offices vary and that consistent guidance and
procedures need to be issued. The contractor also contends that additional training is



                                                                                        13
needed in the revised automated monitoring and evaluation system and that the training
is being planned for the near future.

Without a performance-based monitoring system, none of the contractor’s performance
monitoring plans could give the mission sufficient information for it to make timely and
effective management decisions. Additionally, without an adequate monitoring and
evaluation system for storing supporting documentation, the mission has no assurance
that sufficient documentation exists to support reported results or that the reported
results are indeed accurate. This documentation is critical because the contracting
officer’s technical representative relies on the contractor’s monitoring and evaluation
system to monitor progress of results and subprojects.
As of August 31, 2008, the mission had obligated $119 million and had disbursed
$41 million—a significant amount of resources. The mission must have reliable and
accurate performance data to manage this project.

This audit makes the following recommendations.

   Recommendation 7: We recommend that USAID/Afghanistan review
   Development Alternatives Inc.’s draft performance monitoring plan for
   compliance with contract terms and approve the performance monitoring plan
   once all terms have been met.

   Recommendation 8: We recommend that USAID/Afghanistan’s contracting
   officer’s technical representative direct Development Alternatives Inc. to develop
   standardized procedures for data collection and retention.

   Recommendation 9: We recommend that USAID/Afghanistan’s contracting
   officer’s technical representative obtain an implementation plan from
   Development Alternatives Inc. that requires completion of the reprogramming of
   its automated system by April 30, 2009.

Operational Plan Indicators Need
Refinement

Summary: As part of the Foreign Assistance Reform effort, the Office of the Director of
U.S. Foreign Assistance collects operational and performance data related to U.S.
Government foreign assistance. Missions are required to develop operational plans that
provide a comprehensive, interagency picture of how foreign assistance resources will
be used to support the foreign assistance objectives and the Transformational
Diplomacy goal. USAID/Afghanistan’s operational plan does not sufficiently reflect the
link between the funding going into the project activities and the desired results. This
lack of linkage occurred because past contracting officer’s technical representatives
assigned to manage these projects were not familiar with USAID performance
monitoring and reporting requirements. As a result, the weakened link between funding,
activities, and desired results ultimately could impair stakeholders’ ability to make
decisions effectively.




                                                                                        14
As part of the Foreign Assistance Reform effort, the Office of the Director of U.S. Foreign
Assistance collects annual operational and performance data related to U.S.
Government foreign assistance. Missions are required to develop operational plans that
provide a comprehensive, interagency picture of how foreign assistance resources will
be used to support the foreign assistance objectives and the Transformational
Diplomacy goal. Operational plans required of the mission are expected to strengthen
the link between funding, activities, and desired results and to collect standardized data
about foreign assistance programs. These data then enable USAID to answer inquiries
from the Congress, Office of Management and Budget, and other important
stakeholders. Missions are to prepare an annual performance report that captures the
results achieved in the previous fiscal year. Information from this report will be used in
Agency-level documents such as the annual performance plan and annual financial
report, as well as by technical specialists at both the State Department and USAID as
they examine past performance to assess future plans.

USAID/Afghanistan’s operational plan does not sufficiently reflect the link between the
funding for the project activities and the desired results. First, the indicators that the
mission selected for purposes of reporting results for the Local Governance and
Community Development Projects, implemented across Afghanistan, were not
developed to accurately reflect the implementing activities taking place on the ground.
Second, the mission reported results on operational plan indicators that were not
indicative of where much of the funding was being spent.

USAID/Afghanistan selected two common indicators to reflect the results being achieved
through the two Local Governance and Community Development Projects implemented
throughout Afghanistan. The mission contracted with two different contractors to
implement these projects, one to work in the northern and western regions and the other
(the project implementer under this audit) to work in the southern and eastern regions.
The methodology that the mission used to develop a combined target for a common
indicator was, first, to set a single target that both contractors collectively were tasked to
achieve. According to the contracting officer’s technical representative for the southern
and eastern region, each contractor was to contribute equally toward meeting the
target—that is, the target was divided equally between the two. This approach was not
the best, however, because even though the objectives for both contracts were similar,
each contractor potentially took different approaches and focused its resources
differently because of the geographic diversity of the different regions.

According to the mission’s program office, it would have been more effective had each
contractor developed its individual targets and the mission had then consolidated the
input from both to derive a single target for the common indicator. This target would
have more accurately reflected the activities being implemented across Afghanistan.

In addition, the indicators that the mission decided to report on did not reflect the areas
on which much of the funding was being spent. The mission reported results only for the
activities directed at supporting local stability initiatives related to conflict mitigation,
which fell under component 3. As of September 30, 2008—the operational plan
reporting period—approximately 3 percent of the contractor’s subproject disbursements
were related to component 3 activities. The contractor’s subproject disbursements
under component 2 represented 69 percent, and component 1 amounted to 28 percent
of total disbursements.



                                                                                           15
USAID/Afghanistan’s operational plan did not sufficiently reflect the links between the
funding going into the local governance and community development activities and the
desired results because past contracting officer’s technical representatives assigned to
manage these projects were not familiar with the USAID performance monitoring and
reporting requirements.

As a result, USAID/Afghanistan is not reporting reliable results to the Agency under the
Local Governance and Community Development Projects.                  The targets do not
realistically reflect what the mission intended to achieve under its Local Governance and
Community Development Projects. The results also do not represent the activities for
which a significant amount of the funding was disbursed. These issues weaken the link
between funding, activities, and desired results and could ultimately impair decision
making at the stakeholder level.

This audit makes the following recommendations.

   Recommendation 10: We recommend that USAID/Afghanistan establish
   procedures to review operational plan indicators to ensure that targets with input
   from multiple implementers are developed by each implementer and then
   consolidated.

   Recommendation 11: We recommend that USAID/Afghanistan develop
   procedures to ensure that operational plan indicators are representative of how
   funds are being expended.

   Recommendation 12: We recommend that USAID/Afghanistan review the
   operational plan indicators for the Local Governance and Community
   Development Project and develop customized indicators or select additional
   common indicators to more accurately reflect the project’s expenditure of funds.



Work Plans Require Timely
Approval
The contracting officer’s technical representative designation letter, issued by
contracting officers upon the award of contracts, specifies the contracting officer’s
technical representative’s responsibilities. These responsibilities include approving work
plans, monitoring the financial status of the contract, preparing cost accruals, and
maintaining working files.

However, the contracting officer’s technical representatives assigned to this contract
have not approved work plans on a timely basis. For example, the first-year work plan
was not approved until June 2007, 8 months after the start of the project. Moreover, the
work plan for the remaining 18 months of the project was submitted in April 2008 and
was not approved until 6 months later, in September 2008.

Two primary factors caused the delays in approval of work plans. First, the original
contracting officer’s technical representative had additional duties as a deputy office
director and could not dedicate attention solely to this contract. Second, the contracting
officer’s technical representative position suffered from frequent turnover—three different


                                                                                        16
contracting officer’s technical representatives have held the position since inception of
the project.

Slowness to approve work plans contributed directly to the delays in the three project
components discussed on pages 5 to 11. Specifically, lateness in approval of the first-
year work plan caused implementation of the overall project to lose focus. As the
mission is already addressing the issue of work plan approval, as part of a finding in our
Audit of USAID/Afghanistan’s Alternative Development Program—Southern Region
(Audit Report No. 5-306-08-003-P), we are not making a recommendation here.




                                                                                       17
EVALUATION OF
MANAGEMENT COMMENTS
After evaluating the mission’s response to the draft report, this audit determined that final
actions have been taken on eight recommendations, and management decisions have
been reached on the remaining four recommendations.                  The status of each
recommendation is shown below.

Final actions: Recommendations 1, 2, 3, 5, 6, 7, 8, and 9
Management decisions: Recommendations 4, 10, 11, and 12

For those recommendations without final action, the mission intends to perform the
following actions.

For recommendation 4, the mission plans to issue a mission notice requiring technical
review of all statements of work by June 30, 2009. The planned reviews will occur either
at the time of approval of the activity or at the time of the MAARD (Modified Acquisition
and Assistance Request Document).

For recommendations 10 and 11, the mission has scheduled performance
management training for USAID/Afghanistan staff and implementing partners that
will incorporate the suggestions within the recommendations and include topics such
as explaining how to develop performance management plans, operational
indicators, and the overall foreign assistance framework. The mission anticipates
completion of this training by July 2009.

For recommendation 12, the mission’s Provincial Reconstruction Team Office will work
with USAID/Washington’s Conflict Mitigation and Management Office to develop new
customized operational plan indicators that more accurately reflect the goals of the
project by May 2009. Revisions to the performance management plan are expected to
be completed by June 2009.

We consider that management decisions have been reached on recommendations 4,
10, 11, and 12, and determinations of final action will be made by the Audit Performance
and Compliance Division upon completion of the planned corrective actions.

USAID/Afghanistan’s written comments on the draft report are included in their entirety,
without attachments, as appendix II to this report.




                                                                                          18
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila conducted this performance audit in accordance
with generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The objective of this audit was to determine
whether USAID/Afghanistan’s Local Governance and Community Development Project
(the project) in southern and eastern regions of Afghanistan was achieving planned
results and to assess the project’s impact.

In October 2006 USAID/Afghanistan awarded a $95 million contract to Development
Alternatives Inc. (the contractor) to implement the project. In November 2007,
supplemental funding increased the contract ceiling to $164 million.      As of
August 31, 2008, USAID/Afghanistan had obligated $119 million and disbursed
$41 million for the project activities.

The audit was performed in the Islamic Republic of Afghanistan (Afghanistan) from
September 24 through October 15, 2008, and covered the project’s activities
implemented by the contractor from contract inception to August 2008. In Kabul,
RIG/Manila conducted fieldwork at USAID/Afghanistan and the contractor’s home office.
We also conducted visits to the contractor’s regional offices and selected project sites in
Kandahar, Nangarhar, and Paktia Provinces.

We reviewed and analyzed the activities supporting 14 key performance indicators that
USAID/Afghanistan used to measure whether the project was achieving planned results.
The contractor was required to report on these indicators in periodic and ad hoc progress
reports.

As part of the audit, we assessed the significant internal controls used by
USAID/Afghanistan to monitor project activities. The assessment included controls related
to whether the mission (1) conducted and documented site visits to evaluate progress and
monitor quality, (2) required and approved an annual work plan, (3) reviewed progress
reports submitted by the contractor, and (4) compared reported progress to planned
progress and the mission’s own evaluations of progress. We also reviewed the mission’s
Federal Managers’ Financial Integrity Act report for fiscal year 2007 and prior audit
reports for any issues related to the audit objective.



Methodology
To answer the audit objective, we interviewed officials from USAID/Afghanistan, the
contractor, and provincial reconstruction teams in Kandahar, Nangarhar, and Paktia
Provinces. We also reviewed and analyzed relevant documents at both the mission and



                                                                                        19
the contractor’s office. This documentation included performance monitoring plans, work
plans, and the contract between USAID/Afghanistan and the contractor. We also
reviewed the contractor’s site visit documentation, progress reports, and financial
records.

To test the validity of the computer-processed data used to answer the audit objective,
including data reported by the contractor in periodic and ad hoc progress reports, we
performed the following:

   •	 Verified a judgmental sample of performance data against supporting records at
      the contractor’s office.
   •	 Reviewed a statistical sample of transactions in the performance and monitoring
      system to verify that adequate supporting documentation existed for completed
      subprojects.
   •	 Reviewed the internal application and security controls over the automated
      performance monitoring system used by the contractor for recording and
      reporting results.

For each selected performance indicator, we established the following materiality
threshold criteria to measure progress made in the project:

   • 	 The planned result would be achieved if the target number was met or exceeded.
   • 	 The planned result would be partly achieved if progress was made toward
       meeting the target number.
   • 	 The planned result would not be achieved if no progress was made toward
       meeting the target number.




                                                                                    20
                                                                      APPENDIX II 




MANAGEMENT COMMENTS



MEMORANDUM

TO:                 William S. Murphy, Acting Regional Inspector General/
                    Manila

From:               USAID/Afghanistan Mission Director, Michael J. Yates /s/

DATE:               April 18, 2009

SUBJECT:            Audit of USAID/Afghanistan’s Local Governance and
                    Community Development Project in Southern and Eastern
                    Regions of Afghanistan- LGCD S/E (Audit Report No. 5-306-
                    09-00X-P)


REFERENCE:          W. Murphy memo dated February 22, 2009

Thank you for providing the Mission the opportunity to review the subject draft
audit report. We would like to express our gratitude for the professionalism,
flexibility, resourcefulness, and hard work exhibited by the audit team while
travelling to several insecure provinces throughout Afghanistan to conduct field
work. We are providing confirmation of the actions that have been taken or are
planned to be taken to address the recommendations in the audit report.

MISSION RESPONSES TO AUDIT RECOMMENDATIONS


Recommendation No. 1: We recommend that USAID/Afghanistan develop
contingency plans on how it intends to complete construction of buildings
started before the end of the contract, in the event there are additional
delays.

Recommendation No 2: We recommend that USAID/Afghanistan develop a
detailed implementation plan identifying what activities it can successfully
complete by the end of the project, and how it intends to use unexpended
funds.

The Mission agrees with these recommendations.


                                                                                   21
Actions Taken:

USAID/ Afghanistan instructed Development Alternatives, Inc. (DAI) to stop work
on the construction of all new government buildings under the LGCD program in
November 2008 (See Attachment A). Construction under LGCD is now limited to
the renovation of existing government buildings. The only new vertical structures
that are currently under construction include a branch of the central bank in
Uruzgan and a courthouse in Helmand. Work on these two structures started in
2008 and is progressing according to the benchmarks in the subcontract, with
completion planned for the summer of 2009.

The LGCD S/E contract was recently extended by 60 days to December 1, 2009,
to allow adequate time for all construction and non-construction projects to be
completed (See Attachment B).

The Contracting Officer’s Technical Representative (COTR) initiated a two-step
project development process that requires more planning before a project is
approved. This allows USAID and DAI staff to work together to coordinate with
the military, Afghan provincial government officials, tribal elders, shuras,
provincial development councils, and community development councils. Under
this process, each USAID Activity Manager submits a provincial strategy every
quarter. After this is approved by the COTR, DAI staff uses this as a roadmap to
develop specific projects using a participatory community-based approach. DAI
staff submit a detailed timeline with each project, and the COTR will not approve
a project that takes more than 3-4 months to implement. The new process
insures that projects have local buy-in and are able to be implemented quickly
and safely once approved.

The burn rate for the LGCD project has increased significantly over the past
three months and the COTR is tracking expenditures on a weekly basis.
USAID/Afghanistan is confident that all funds will be spent by December 2009. A
more in-depth review will be done in June 2009 to determine if the expenditure
rate is sustainable through the remaining life of the project resulting in total
expenditure of funds by November 30, 2009. The U.S. Government has made
the Southern and Eastern provinces of Afghanistan a priority, and
USAID/Afghanistan is currently designing a follow-on project to be started in
fiscal year 2010. Any remaining funds will be deobligated from LGCD and used
to fund the new project that will work in the same provinces.

Based on this information, the Mission requests that Recommendations No. 1
and No. 2 be closed.

Recommendation No 3: We recommend that USAID/Afghanistan develop
procedures to provide training to all new and existing field program
officers as to their roles and responsibilities.



                                                                               22
Recommendation No. 6: We recommend that USAID/Afghanistan develop
procedures for providing existing and new development advisors training
on their roles and responsibilities related to program implementation.

The Mission agrees with these recommendations.

Actions Taken:

All existing Field Program Officers (FPOs) attend USAID COTR training during
their tours. The LGCD COTR is working with the Contracting Officer to draft
specific “activity manager” memos that outline the roles and responsibilities of
each individual FPO as related to the LGCD S/E project. The COTR has
designed an LGCD orientation session for each new FPO that requires them to
meet individually with the COTR to get an overview of the program and then
spend a half-day at the DAI/LGCD office with the COTR and Chief of Party to
meet contractor staff and get briefed on the monitoring and evaluation system
and their relationship with DAI field staff.

Although some responsibilities are delegated to activity managers, the Mission
has empowered the COTR to approve provincial strategies, sub-project
portfolios, and large subprojects. The COTR also has the ability to revoke the
LGCD activity manager role if a FPO oversteps his/ her responsibilities.

In addition to the civil-military training that each FPO receives before being
deployed to Afghanistan, USAID/Afghanistan is working with USAID/Washington
to develop a U.S.-based orientation course that familiarizes incoming FPOs to
USAID culture, rules, and regulations. This training will address FPO and
Development Advisor roles in program implementation and their relationship with
the COTRs at USAID/Afghanistan.

Development Advisors are not activity managers for the LGCD program and no
longer have responsibilities related to program implementation. However, they
also attend all of the trainings mentioned above.

Based on this information, the Mission requests that Recommendations No. 3
and No.6 be closed.

Recommendation No 4: We recommend that USAID/Afghanistan develop
procedures requiring technical review of statements of work for specificity
to assist in project implementation.

The Mission agrees with this recommendation.

Planned Action:

By June 30, 2009, USAID/Afghanistan will issue a Mission Notice requiring



                                                                                   23
technical review of all Statements of Work. The review will occur either at the
time of the activity approval (Attachment C) or at the time of the MAARD. Based
on this information, the Mission requests concurrence that a management
decision has been reached on Recommendation No. 4. The target closure date
is July 2009.

Recommendation No. 5: We recommend that USAID/Afghanistan establish
procedures for subproject development and approval of component three
activities and communicate these to Development Alternatives, Inc. and the
mission’s development advisor.

The Mission agrees with this recommendation.

Actions Taken:

Since the completion of field work for this audit last year, the COTR has worked
with DAI to develop a “toolkit” and action plan for the development and approval
of component three activities (local stability initiatives). This toolkit specifies
intervention criteria for subprojects, gives examples of interventions, and
describes mechanisms for implementing these interventions (See Attachment D).

Component three was understaffed at the time of the auditors’ fieldwork, and was
being managed by one expat and one Afghan national based out of Kabul. The
component three team now consists of 17 people spread out around the country.
Expatriate managers are posted in Kabul, Kandahar, Gardez, and Nangarhar
while local staff have a presence in every province in which LGCD S/E works.
This team works closely with the military to formalize partnerships and prepare
strategic plans for each province that lay out the logistical framework on how to
deliver assistance through the military.

From October 2006 until September 2008, DAI completed 19 subprojects in five
provinces. After component three was restructured in October 2008, DAI
implemented 61 subprojects in 11 provinces. DEVADs no longer have
responsibilities related to project implementation and are not activity managers
for the LGCD S/E project.

Based on the restructuring of component three activities, the Mission requests
that Recommendation No. 5 be closed.

Recommendation No. 7: We recommend that USAID/Afghanistan review
Development Alternatives, Inc.’s draft performance monitoring plan for
compliance with contract terms and approve the performance monitoring
plan once all terms have been met.

The Mission agrees with this recommendation.




                                                                                 24
Actions Taken:

The draft performance monitoring plan was approved by the COTR in November
2008 and is fully operational (See Attachment E). The current COTR began
working with DAI to change performance indicators to comply with the terms of
the task order in June 2008. It took some time to update DAI’s internal systems
and data collection procedures but all current and past subprojects are now
being measured against this new performance monitoring plan (PMP).

Based on the fact that LGCD now has an approved PMP that complies with the
contract terms, the Mission requests that Recommendation No. 7 be closed.

Recommendation No. 8: We recommend that USAID/Afghanistan’s
cognizant technical officer direct Development Alternatives, Inc. to develop
standardized procedures for data collection and retention.

Recommendation No. 9: We recommend that USAID/Afghanistan’s
cognizant technical officer obtain an implementation plan from
Development Alternatives, Inc. that requires completion of the
reprogramming of its automated system by April 30, 2009.

The Mission agrees with these recommendations.

Actions Taken:

The COTR for LGCD has been working with DAI to develop standardized
procedures for data collection and retention, and these procedures are now in
place. A dedicated staff member now contributes 100% of her level of effort to
M&E and has no other duties. DAI also hired additional staff whose jobs are
dedicated to monitoring and evaluation, and has reprogrammed their automated
system (TAMIS) to include indicator and monitoring data.

One American staff member based in Kabul oversees a staff of three Afghans in
Kabul and one international staff member in each regional hub (Kandahar,
Nangarhar, and Gardez) to manage M&E. DAI now has more expats posted in
the regional hubs so that each of their areas of responsibility for monitoring and
evaluation have been reduced from four provinces to one or two provinces. DAI
has also developed a monitoring and evaluation manual that standardizes and
defines indicator data collection procedures (see attachment F). The M&E
advisor is also provided with an experienced U.S.-based home office point
person to resolve complicated M&E issues as they arise.

DAI’s automated system (TAMIS) has been fully reprogrammed as of February
2009. This system now includes indicator data for all subprojects as well as data
source documents (i.e. training attendance sheets, handover documents, etc.).
In addition, monitoring reports are now attached to over 90% of all subprojects.



                                                                                 25
Based on this information, the Mission requests that Recommendations No. 8
and No. 9 be closed.

Recommendation No. 10: We recommend that USAID/Afghanistan establish
procedures to review operational plan indicators to ensure targets with
input from multiple implementers are developed by each implementer and
then consolidated.

Recommendation No: 11: We recommend that USAID/Afghanistan develop
procedures to ensure that operational plan indicators are representative of
how funds are being expended.

The Mission agrees with these recommendations.

Planned Action:

The Mission has scheduled a Performance Management Training for 

USAID/Afghanistan staff and implementing partners that will accomplish the 

following: 


   Explain performance monitoring and evaluation methodologies. 

   Utilize new approaches to performance monitoring and evaluation. 

   Explain new requirements for performance monitoring and evaluation. 

   Explain how to develop a comprehensive performance monitoring plan. 

   Explain how to develop performance indicators. 

   Explain how to establish performance targets.

   Explain how to conduct data quality assessments.

   Explain operational plan indicators and the foreign assistance framework. 


The Mission will work with the trainers to ensure that these recommendations are 

incorporated into this training program tentatively scheduled for June 2009. 

Based on this, the Mission requests the RIG’s concurrence that management

decisions have been reached on Recommendations No. 10 and No. 11. The 

target date for closure is July 2009. 


Recommendation No. 12: We recommend that USAID/Afghanistan review
the operational plan indicators for the Local Governance and Community
Development Project and develop customized indicators or select
additional common indicators to more accurately reflect the project’s
expenditure of funds.

The Mission agrees with this recommendation.

The PRT office is working together with USAID/Washington’s Conflict Mitigation
and Management Office to develop customized indicators that more accurately



                                                                                  26
reflect the goals of the project.

New operational plan indicator(s) for LGCD and the PRT office’s other conflict
mitigation programs will be developed by May, and revisions to the PMP are
expected to be complete by June 2009. The Mission requests RIG’s
concurrence that a management decision has been reached on
Recommendation No. 12. The target date for closure is July 2009.




Attachment A: District center termination Letter from Contracting Officer dated
11/23/08

Attachment B: 60-day no cost extension for the LGCD S/E project

Attachment C: Mission Order 201.01

Attachment D: Component 3 toolkit

Attachment E: PMP approval letters dated 11/20/08 and 12/16/08

Attachment F: LGCD S/E Monitoring and Evaluation Manual

Attachment G: DAI web-based management system (TAMIS) view showing
indicators




                                                                                  27
                                                                                             APPENDIX III



                      Table A-1: Project Achievements as of August 2008


                                                                         FY 2008     Reported results as
                                   Indicator                                     4                          Verified
                                                                          target       of August 2008


    1    Number of target institutions such as Office of Governors,
         Provincial Development Committees, and selected
                                                                            40               45                 47
         Provincial Line Ministry Departments implementing service
         delivery performance mechanisms.
    2    Number of target institutions such as Office of Governors,
         Provincial Development Committees, and selected
                                                                            4                45                 32
         Provincial Line Ministry Departments reporting publicly on
         service delivery performance improvements
    3    Number of Provincial Development Committees
         demonstrating improved performance towards Ministry of
         Economics Provincial Development Committee                         10               12                 12
         Operational Guidelines as measured by Quarterly Service
         Delivery Performance Reports.
    4    Number of Office of Governors demonstrating improved
         performance towards Office of Governors Office
                                                                            10               12                 12
         Operational Guidelines as measured by Quarterly Service
         Delivery Performance Reports.
    5                                                                       No                             Inadequate
                                                                                           2,944
         Number of government officials trained.                          target                             support
    6
         Number of institutions equipped with information                   13               48                 48
         technology and/or internet connection.
    7                                                                       0                7                  7
         Number of provincial and district institutions rehabilitated.
    8    Percentage of subprojects that include 10% or more                                                Inadequate
                                                                           70%              46%
         community contribution.                                                                             support
    9                                                                       No                             Inadequate
                                                                                          967,761
         Number of citizens benefiting from improved services.            target                             support
    10
         Number of community-based reconciliation projects                  90               13                 13
         completed with U.S. Government assistance.
    11   Number of people trained in conflict mitigation/resolution       1,000             740                 690
         skills with U.S. Government assistance.
    12   Number of service sector assessments.                              15               10                 10
    13   Number of rapid institutional capacity assessments of
                                                                            40               45                 45
         government agencies.
    14   Number of institutional baseline surveys of service delivery       40
                                                                                             45                 45
         performance.




4
  Fiscal year 2008 targets represent the targets used by the contracting officer’s technical
representative to monitor program progress. However, as discussed on pages 11 and 14 of this
report, these targets were not properly established.


                                                                                                           28
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202–712–1150 

            Fax: 202–216–3047 

            www.usaid.gov/oig
